                    July 14, 2000

                    ALLEN R. KANE
                    CHIEF MARKETING OFFICER AND
                     SENIOR VICE PRESIDENT

                    KEITH STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIALS

                    SUBJECT:	 Letter Advisory Report - Review of Minority
                              Contracting Opportunities Under Advertising
                              Contracts (Report Number CA-LA-00-001)

                    This report presents the results of our review of the Postal
                    Service’s efforts to provide opportunities for minority
                    companies to compete for advertising contracts (Project
                    Number 00HR002CA000). The review was initiated when a
                    member of Congress requested we conduct a preaward
                    audit of the advertising contracts and review the Postal
                    Service’s efforts to include minority vendors as part of these
                    contracts.

Results in Brief	   The review disclosed that Postal Service Purchasing
                    officials had taken steps to provide opportunities for minority
                    companies to compete for Postal Service advertising
                    contracts. During the review the Postal Service also agreed
                    to require companies awarded advertising contracts to
                    submit a plan showing how they planned to subcontract
                    some of the advertising work. Subcontracting should
                    provide minority companies additional opportunities to
                    provide advertising services to the Postal Service.

                    In addition, Postal Service officials advised us that
                    $7.5 million, about 5 percent of the $150 million in planned
                    advertising contract funds, were to be allocated to the multi-
                    cultural marketing portion of the advertising contracts.
                    However, we noted that the Postal Service had initially set
                    aside the multi-cultural contract work for minority-owned
                    companies, but removed this requirement when Postal
Review of Minority Contracting Opportunities                                       CA-LA-00-001
 Under Advertising Contracts


                                Service Purchasing officials discovered it was contrary to a
                                1995 court decision. Regardless, Purchasing officials
                                advised us the multi-cultural work would likely be awarded
                                to minority companies.

                                We noted the Postal Service’s defined "minority owned"
                                business as a business, that is 51 percent owned and
                                operated by a minority, which is consistent with the federal
                                government’s Small Business Administration’s definition of
                                minority. Furthermore, we noted that all companies were
                                allowed to submit proposals on any of the advertising
                                contracts; however, minority-owned firms only submitted
                                proposals on the multi-cultural portion of the contracts.

                                Finally, we have arranged to audit the companies’ proposals
                                for the advertising contracts and the contracting officer
                                agreed to use the results of the audits to establish fair and
                                reasonable prices with companies that are awarded
                                contracts. As a result, this report does not contain
                                suggestions.

 Background 	                   For fiscal year 2001, the Postal Service budgeted an
                                estimated $150 million to be spent on advertising contract
                                needs. The Postal Service Advertising and Promotion
                                Department plans to use these funds to award contracts to
                                develop integrated marketing communications across
                                designated communication channels for the Postal Service's
                                products and services under the masterbrand –The United
                                States Postal Service. The solicitation for these contracts
                                stated indefinite quantity contracts would be awarded in five
                                functional communications modules: (1) Strategy, Creative
                                Integration, and Production; (2) Media Planning and Buying;
                                (3) Direct Marketing and Sales Materials; (4) Retail - Point
                                of Sale (In-Store Promotion); and (5) Multicultural Marketing
                                Communications.

                                Selection of companies to perform contract work was to be
                                accomplished in three phases. In phase I, the Postal
                                Service issued a solicitation to companies to prequalify for
                                one or more of the five contract modules. In addition,
                                prospective companies were requested to specify the ethnic
                                market they wanted to work with as part of their submission
                                for the multi-cultural contract; i.e. African-American, Asian
                                American and/or Hispanic markets. Phase II required
                                prequalified companies to provide additional information



                                                 2
Review of Minority Contracting Opportunities                                        CA-LA-00-001
 Under Advertising Contracts


                                specified by the Postal Service. This information was used
                                to select those companies that were invited to respond to
                                the contract solicitation. Phase III would consist of selecting
                                the companies for each contract module.

 Objectives, Scope,             The objectives of our review were to determine whether the
 and Methodology                Postal Service's advertising contracts solicitation adhered to
                                minority subcontracting requirements, contained a
                                51 percent minority ownership threshold and how "minority"
                                was defined in the solicitation. In addition, we were to
                                determine the estimated funding to be allocated to the multi-
                                cultural marketing contract module and whether companies
                                were limited in submitting their proposals during the
                                prequalification phase of the contracting process. To
                                address our objectives, we conducted interviews with Postal
                                Service personnel and reviewed the contract solicitation and
                                related vendor proposal files.

                                This review was conducted during the months of June and
                                July 2000 in accordance with the President’s Council on
                                Integrity and Efficiency, Quality Standards for Inspections.
                                We discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

 Adherence to                   The initial advertising and promotion solicitation did not
 Subcontracting                 contain a requirement for contractors to submit a
 Requirements                   subcontracting plan. Subcontracting plans require
                                companies to show the efforts they propose to subcontract
                                with small, minority, and woman-owned businesses.
                                According to the Postal Service contracting officer, he did
                                not include subcontracting plan requirements because he
                                believed that the contracts were exempted from this
                                requirement by Postal Service policy.

                                We discussed the merits of including subcontracting plan
                                requirements in the final contracts with the contracting
                                officer and the manager, Advertising. Both stated that
                                putting subcontracting plan requirements in the final
                                contracts would not cause harm to either the Postal Service
                                or the companies selected for the contracts and it would
                                support the Postal Service's commitment to supplier
                                diversity.




                                                 3
Review of Minority Contracting Opportunities                                          CA-LA-00-001
 Under Advertising Contracts



                                Subsequently, the vice president, Purchasing and Materials,
                                advised us that Postal Service purchasing policy did not
                                exempt the contracts from the subcontracting plan
                                requirements and they should have initially been included in
                                the solicitation.

 Multi-cultural                 The contracting officer and the manager, Advertising
 Allocation and 51              advised us $7.5 million, about 5 percent of the $150 million
 Percent Minority               in advertising contract funds would be allocated to three
 Threshold                      minority firms to perform multi-cultural marketing work. We
                                noted the initial prequalification solicitation stated " . . . a
                                supplier of multi-cultural advertising services must be a
                                member of that particular ethnic group for which they do
                                work, and they must maintain a majority ownership of the
                                company (51 percent) throughout the course of the
                                contract."

                                However, during the question and answer phase of the
                                prequalification phase, companies raised questions
                                regarding the 51 percent ownership requirements.
                                According to the contracting officer, based on the questions,
                                the Postal Service realized this contract requirement was
                                equivalent to a set-aside, which the Postal Service had
                                decided not to provide. He stated the requirement had been
                                included in the prequalification solicitation in error and
                                prospective vendors were advised that it should be
                                disregarded.

                                Subsequently, the Postal Service issued guidance, which
                                stated “. . . the Postal Service cannot use . . . set-asides,
                                preferences, or price and evaluation credits as ways of
                                increasing contracts with minority and/or woman owned
                                businesses." These requirements were written in
                                conjunction with Postal Service Legal staff and were
                                approved by the Legal staff, based on a 1995 Supreme
                                Court decision. Our General Counsel reviewed the policy
                                and determined it appears to be consistent with the court
                                decision. However, we are currently reviewing this policy in
                                more depth as part of an ongoing review of the Postal
                                Service Supplier Diversity Program.

 Definition of Minority	        The Postal Service's definition of minority in the solicitation
                                mirrors the federal government's Small Business
                                Administration definition. Section L – Representations and



                                                  4
Review of Minority Contracting Opportunities                                       CA-LA-00-001
 Under Advertising Contracts


                                Certifications of the solicitation required vendors to self-
                                certify their type of business organization status, including
                                whether they are a small, woman-owned, or minority
                                business concern. The solicitation provides definitions for
                                each of the three listed categories to help vendors in their
                                self-certification. The solicitation defines a minority
                                business as a concern that is at least 51 percent owned by,
                                and whose management and daily business operations are
                                controlled by one or more members of a socially and
                                economically disadvantaged minority group. Minority
                                groups included U.S. citizens who are Black Americans,
                                Hispanic Americans, Native Americans, Asian-Pacific
                                Americans, or Asian-Indian Americans.

                                For statistical reporting purposes, the Postal Service
                                Purchasing Policy and Programs office classifies minority
                                business, woman-owned business, and small business
                                statistics as three distinct categories. However, a business
                                could be included in the statistics for more than one
                                category. For example, a small business owned by a
                                minority, who was also a woman, would be counted in the
                                statistics for each category—small, minority, and woman
                                owned. Postal Service officials stated although a business
                                may be included in each category, this approach did not
                                result in double or triple counting of businesses in their
                                statistical reporting. We will further address this area of
                                statistical reporting in a separate ongoing review of the
                                Postal Service supplier diversity program.

 Limitations on                 Our review did not disclose any limitations on prospective
 Submitting Proposals           companies rights to submit proposals on the advertising
                                contracts during the prequalification phase. We noted,
                                however, that even though they could have bid on any of
                                the advertising modules, the minority companies only bid on
                                the multi-cultural module.

 Audits of Advertising          Our review of the contract files and discussions with the
 Cost Proposals                 contracting officer determined that the Postal Service had
                                not requested the Office of Inspector General to perform
                                audits of the price proposals. However, we suggested and
                                Postal Service purchasing officials agreed to allow us to
                                audit the proposals for the contracts to be awarded. They
                                agreed this would assist them in determining fair and




                                                 5
Review of Minority Contracting Opportunities                                       CA-LA-00-001
 Under Advertising Contracts



                                reasonable contract prices. We would be unable to
                                complete the audits by contract award; therefore, the
                                officials agreed to include language in the contracts, which
                                would allow price adjustments based on the results of our
                                audits.

 Management                     As a result of our review, the vice president, Purchasing and
 Agreements                     Materials, agreed to:

                                1. Include a subcontracting plan clause in the advertising
                                   contracts.

                                2. Include language in the contracts allowing price
                                   adjustments, based on the results of the proposal audits.

                                As a result, this report does not contain suggestions or
                                require a reply or further management action. However, if
                                you have any comments on the report, please forward them
                                to our office not later than July 21, 2000.

                                We appreciated the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact                , or me at (703) 248-2300.



                                Sylvia L. Owens
                                Assistant Inspector General
                                 for Business Protection

                                cc: 	 Roxanne K. Symko
                                      John R. Gunnels




                                                 6
Review of Minority Contracting Opportunities       CA-LA-00-001
 Under Advertising Contracts




 Major Contributors to
 This Report




                                               7
